No. 19-984
IN THE

Supreme Court of the United States
MAZIE SLATER KATZ & FREEMAN, LLC,

Petitioner,

v.

COMMON BENEFIT FEE AND COST COMMITTEE,

Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

REPLY BRIEF FOR PETITIONER

ADAM M. SLATER
MAZIE SLATER KATZ
& FREEMAN, LLC
103 Eisenhower Pkwy.
Suite 207
Roseland, NJ 07068
Tel. (973) 228-9898
aslater@mazieslater.com

JONATHAN S. MASSEY

Counsel of Record

MASSEY & GAIL LLP
1000 Maine Ave. SW
Suite 450
Washington, DC 20024
Tel. (202) 652-4511
jmassey@masseygail.com

March 20, 2020
BATEMAN & SLADE, INC.

STONEHAM, MASSACHUSETTS

TABLE OF CONTENTS
TABLE OF AUTHORITIES ...................................... ii
REPLY BRIEF FOR PETITIONER ...........................1
ARGUMENT ...............................................................3
CONCLUSION ..........................................................12

i

TABLE OF AUTHORITIES
CASES:

Brown v. Gillette Co.,
723 F.2d 192 (1st Cir. 1983) ...........................10

Edelman v. Jordan,
415 U.S. 651 (1974) ........................................10

Freytag v. C.I.R.,
501 U.S. 868 (1991) ........................................10

Fuentes v. Shevin,
407 U.S. 67 (1972) ..........................................11

Hill v. Schilling,
495 Fed. App’x 480 (5th Cir. 2012) ................10

In re Diet Drugs (Phentermine/Fenfluramine/Dexfenfluramine) Prods. Liab.
Litig., 582 F.3d 524 ..................................4, 5, 6
In re High Sulfur Content Gasoline
Prod. Liab. Litig.,
384 Fed. App’x 299 (5th Cir. 2010) ..................7

In re High Sulfur Content Gasoline Prods.,
517 F.3d 220 (5th Cir. 2008) ............................4

In re Nineteen Appeals Arising Out Of The San
Juan Dupont Plaza Hotel Fire Litigation,
982 F.2d 603 (1st Cir. 1992) .............................3

ii

In re Thirteen Appeals Arising Out of San Juan
Dupont Plaza Hotel Fire Litigation,
56 F.3d 295 (1st Cir. 1995) ...........................6, 7

Johnson v. Zerbst,
304 U.S. 458 (1938) ........................................10

MACTEC, Inc. v. Gorelick,
427 F.3d 821 (10th Cir. 2005) .................... 9-10

Marek v. Lane,
134 S. Ct. 8 (2013) ............................................1

Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp.,
559 U.S. 662 (2010) ........................................11

iii

REPLY BRIEF FOR PETITIONER
The Petition demonstrated the need for this
Court to make clear that federal courts, when
allocating attorney’s fees and expenses in mass
actions, such as multi-district litigation proceedings
(MDLs), must adopt procedures that guarantee due
process and ensure that allocation decisions are
transparent, jurisprudentially sound, fair, and
reasonable. Further, the recommendations of courtappointed plaintiffs’ fee committees (which are the
recipients of the awards they recommend) must be
closely scrutinized, and courts must engage in
independent fact-finding as a check on selfinterested plaintiffs’ lawyers.
The Brief In
Opposition (“BIO”) sidesteps these compelling issues.
Respondent concedes the Fourth Circuit failed
to address substantively the merits of the appeal in
this case, or even the merits of the motion to dismiss,
which it granted in a terse sentence with no
explanation.
Pet. App. 5a (“Upon review of
submissions relative to the motion to dismiss, the
Court grants the motion.”). This failure conflicts
with precedent in the First, Third, and Fifth
Circuits. All those Circuits have held that district
courts overseeing MDLs and other mass actions
must implement objectively fair procedures to
determine fee and expense allocations.
The Fourth Circuit’s decision fails to meet the
standards for fee awards set by the Federal Judicial
Center (which the Respondent does not deny). It
also endangers the integrity of the federal judiciary,
implicating concerns similar to those expressed by
the Chief Justice, Justice Alito, Justice Kavanaugh,
and other Justices regarding cy pres awards in
Marek v. Lane, 134 S. Ct. 8 (2013) (opinion of
1

Roberts, C.J., respecting the denial of certiorari), and
Frank v. Gaos, No. 17-961. Where attorneys can
profit regardless of the adequacy of the settlements
for their clients, and without scrutiny of their
awards, litigants are harmed, and the integrity of
the judicial system is undermined. That occurred
here.
Tellingly, Respondent makes little effort to
defend the process employed by the District Court
below. The District Court in this case paid only lip
service to due process and fairness and failed to
address critical red flags, including unrebutted proof
of self-dealing and falsification of billing records by
fee committee firms and awards of tens of millions of
dollars to one attorney by the same special master in
two separate but concurrent litigations at the same
time. Pet. App. 173a-177a; Pet. 26-27. The BIO
offers no defense to these enormously troubling facts.
Instead, the BIO unwittingly underscores the
need for this Court’s review. The BIO argues that
this Court should hold that Petitioner impliedly
waived its right to appeal, including its right to seek
certiorari from this Court, by participating in the
common-benefit process in the MDL court. BIO i.
But Respondent’s argument simply proves the point
of the Petition. The purported appellate waiver
imposed by the District Court below is but a
symptom of the overall problem. Inferring a waiver
of appellate review compounds the lack of
meaningful judicial scrutiny by the District Court
and creates a perilous avenue for courts to evade
their responsibility to ensure that mass action fee
awards, especially self-interested fee and cost
awards by heavily conflicted committees of plaintiffs’
attorneys, comply with the law.
If Petitioner

2

prevails on the overarching issue, the appellate
waiver is swept away as a necessary consequence.
According to Respondent, courts can
circumvent due process and eviscerate appellate
rights simply by decreeing in case management
orders, as a matter of routine, that any applicant
seeking fees or costs waives the right to seek
appellate review. If the Fourth Circuit’s decision is
permitted to stand, unreviewed by this Court, it will
provide a blueprint for district courts in every MDL,
class action, and complex litigation for avoiding
meaningful judicial scrutiny of fee and expense
awards.
This would enable district courts to
delegate unchecked power to self-interested,
conflicted committees of plaintiffs’ lawyers to direct
massive awards to themselves. The Fourth Circuit’s
failure to scrutinize the award of hundreds of
millions of dollars in attorneys fees here illustrates
the need for review. The wider implications for cases
in countless other contexts cannot be overstated.
This Court’s review is urgently needed.
ARGUMENT
1. Respondent’s focus on the appellate waiver
provision, which is but a further example of the lack
of meaningful judicial review in this case, is a
distraction from the fundamental issue here. The
decision below creates a circuit split with decisions
in the First, Third, and Fifth Circuits requiring close
judicial supervision of fee and expense awards in
mass actions:
▪ In re Nineteen Appeals Arising Out Of The
San Juan Dupont Plaza Hotel Fire Litigation, 982

F.2d 603, 614-15 (1st Cir. 1992) (reversing the
district court’s approval of a $36 million fee award to

3

the plaintiffs’ steering committee and citing “the
public interest in the integrity of court proceedings”);
▪ In re Diet Drugs (Phentermine/Fenfluramine/Dexfenfluramine) Prods. Liab. Litig., 582 F.3d
524, 541 (3d Cir. 2009 (“trial courts must engage in
robust assessments . . . when evaluating a fee
request”);

▪ In re High Sulfur Content Gasoline Prods.,
517 F.3d 220, 227 (5th Cir. 2008) (reversing district
court’s fee award that relied heavily on the
recommendations of court-appointed lead counsel
and did not allow judicial review, audit, or testing of
the lead counsel’s fee request: “the appointment of a
committee does not relieve a district court of its
responsibility to closely scrutinize the attorneys’ fee
allocation,
especially
when
the
attorneys
recommending the allocation have a financial
interest in the resulting awards. Here, the district
court abdicated its responsibility to ensure that the
individual awards recommended by the Fee
Committee were fair and reasonable.”).
The Fourth Circuit’s decision not to address
the merits of the objections here is inconsistent with
these precedents. In this case, the District Court
refused to permit any discovery into the documents
considered by the FCC, including the time sheets at
the heart of the fee awards, even though they had
been submitted to the court for in camera review.
The District Court also held no evidentiary hearing
despite the disturbing facts indicating serious
problems with the fee and expense awards. Pet.
App. 173a-177a; Pet. 26-27. Instead, in a conclusory
six-page opinion it approved the FCC’s self-dealing
while summarily rejecting the objections with no
fact-finding or analysis.
4

The BIO focuses on Petitioner’s ability to
submit materials to the FCC and Petitioner’s ability
to “communicate[] directly with members of the FCC
about the review and allocation process.” BIO 15.
This argument proves nothing. Petitioner’s ability to
make its case to the self-interested FCC, which
suffered from an obvious and disabling conflict of
interest and which was empowered by a process
bereft of critical supervision, was no substitute for
meaningful judicial review.
The BIO contends that there is no conflict
with In re Diet Drugs because the Third Circuit
noted (in dictum) that while the district court had
allowed “limited discovery” below, “it need not have
granted discovery at all.” 582 F.3d at 538. But that
dictum obscures the broader point. In re Diet Drugs
provides a good example of a thorough and
transparent district court process, which allowed the
Third Circuit to conduct a meaningful appellate
review. In stark contradiction to what occurred
here, the district court in Diet Drugs conducted a
close examination of the fee awards and allowed
depositions of the lead counsel claiming fees:
• the district court required all law
firms to submit verified copies of their
contemporaneously-maintained
time
records to a court-appointed auditor;
• the requesting attorneys were also
ordered to file a 30-volume compendium
of the fee requests and supporting
documents with the district court;
• any party or objector was allowed to
review the compendium, to propound
discovery, and to take depositions of

5

lead counsel claiming entitlement to
fees;
• following discovery, the district court
held a two-day hearing;
• the district court then required the
auditor to submit a report, allowed
supplemental compendiums of time
sheets to be filed, and held three
additional hearings on the issue of feeshifting;

Id. at 533-38. None of this occurred here.
The BIO does not address the First Circuit’s
1992 decision in In re Thirteen Appeals, but instead
points to a subsequent decision in the same
litigation: In re Thirteen Appeals Arising Out of San
Juan Dupont Plaza Hotel Fire Litigation, 56 F.3d
295 (1st Cir. 1995). To be sure, the First Circuit
opined in 1995 that “[a] district court is not obliged
to convene an evidentiary hearing as a means of
resolving every attorneys’ fee dispute.” 56 F.3d at
301-02. But its reasoning supports Petitioner here.
The First Circuit explained that an evidentiary
hearing was unnecessary in that case because
objectors could present their arguments in written
form and had been afforded a “banquet of
information”: “all the data reasonably necessary to
formulate their objections, including all the [steering
committee] members’ time-and-expense submissions,
summaries thereof, detailed accounts of the
procedures used by the [steering committee] to
gather, review, and audit time records, and the
working papers, correspondence, and documentation
generated by the [steering committee’s] accountants
during the compilation process.” Id. at 303. Thus,
although a district court has a range of available
6

alternatives to provide a fair and transparent
process, there is a procedural and constitutional
minimum with which the court must comply in order
to ensure due process and the public interest in the
integrity of court proceedings. The Fourth Circuit
failed to meet that standard.
Moreover, the BIO fails to mention the
rigorous review in which the First Circuit engaged in
its 1995 In re Thirteen Appeals decision, which
reversed the district court’s allocation of 70% of the
common-benefit fund to members of the steering
committee. Id. at 312 (“the fee allocation reflects a
serious error of judgment, and therefore an abuse of
discretion”). Here, by contrast, the Fourth Circuit
inexplicably provided no appellate review at all.
The BIO’s treatment of Fifth Circuit
precedent is equally misleading. It fails to address
the Fifth Circuit’s 2008 decision in In re High Sulfur
Content Gasoline Prod. Liab. Litig. and instead cites
a 2010 unpublished decision involving fee objections
by a single attorney who sought compensation for his
work as class liaison counsel after the settlement in
the case (rather than during the active litigation).

In re High Sulfur Content Gasoline Prod. Liab.
Litig., 384 Fed. App’x 299 (5th Cir. 2010). The BIO

fails to acknowledge that the 2010 decision
concerned different issues from the 2008 case
discussed in the Petition. In 2010, the Fifth Circuit
upheld the denial of a hearing based on the specific
record before it, which established that a hearing
was unnecessary. Id. at 301 (“In this case, the
district court declined to hold an evidentiary fee
hearing because ‘the Court has nothing before it
upon which to hold [a full evidentiary] hearing.’ The
court determined that ‘[the objector] submitted 185
7

hours of attorney time in his fee application and the
Special Master’s recommendation reflects that
amount. Now is not the time to discuss the
considerable other work that [the objector] claims to
have performed yet did not include in his fee
application.’”).
The instant case is completely different. Here,
objectors raised a wealth of objections meriting an
evidentiary hearing.
For example, the special
master found multiple disturbing acts of self-dealing
and falsification of key records perpetrated by
attorneys who awarded themselves the lion’s share
of the common-benefit fund. Pet. App. 173a-177a.
Rather than take such misconduct into account, the
special master admitted that he was not acting as a
neutral but rather was acting on behalf of the fee
committee. Id. at 174a. No acceptable standard
would permit such glaring facts to remain
unscrutinized.
2. Respondent errs in attempting to compare
this case to No. 19-791, where the petitioner did not
raise the circuit split or focus on the overlay of
systemic problems of which the imposed purported
appellate waiver was only a symptom. Simply put,
the only similarity between the two petitions is
criticism of the appellate waiver provision. The
Petition here presents additional and significant
questions that were not raised in No. 19-791.
Moreover, the petitioner in No. 19-791 had
explicitly agreed to the appellate waiver provision,
albeit because it had no choice, through its signing of
the MDL participation agreement and its
membership on the MDL plaintiffs steering
committee. BIO 2, 6. In contrast to No. 19-791, the
Petitioner here did not agree to an appellate waiver
8

provision. It was the only law firm with its own
separate written agreement for participation and
was not a member of the MDL steering committee.
The BIO concedes that Petitioner did not
participate in the MDL. BIO 8 (Petitioner “chose not
to participate in the MDL”). The BIO does not
contest the undisputed record evidence that
Petitioner’s own agreement with the pelvic mesh
MDL Common Benefit Fee and Cost Committee
(FCC) did not contain an appellate waiver provision.
Pet. 9-11.
In fact, the BIO quotes from that
agreement (BIO 8-9) without purporting to identify
any appellate waiver provision in it.
Further, the BIO admits that Petitioner
entered into its agreement with the FCC on August
28, 2012, before entry of the order containing a
forced appellate waiver provision for common-benefit
fee and cost awards. BIO 8, 10. In short, nothing in
the agreement between Petitioner and the FCC
prevented Petitioner from seeking appellate review
of the FCC’s fee and expense allocation decision or
from seeking certiorari in this Court.
A
subsequently entered order could not legitimately
impose that waiver.
3. Respondent’s attempt to infer a waiver of
appellate rights by operation of law would provide a
model for district courts to shield fee and cost
awards from judicial review. It confirms the need for
this Court’s review on an important question of
federal law.
All of the cases involving appellate waiver
provisions cited in the BIO (7-8) concern fully
distinguishable express provisions contained in
consensual contractual or similar agreements. E.g.,
MACTEC, Inc. v. Gorelick, 427 F.3d 821, 830 (10th
9

Cir. 2005) (“contractual provisions limiting the right
to appeal from a district court’s judgment confirming
or vacating an arbitration award are permissible, so
long as the intent to do so is clear and unequivocal”).
None of the cases cited in the BIO involve a situation
like this: a purportedly “implied” waiver supposedly
effected by operation of law, on the basis of an afterthe-fact case management order. Indeed, the cases
cited in the BIO restate the rule that a waiver must
be “knowing and voluntary.” Hill v. Schilling, 495
Fed. App’x 480, 487 (5th Cir. 2012) (citation and
internal quotation marks omitted).
The cases
confirm that “[t]hose who give up the advantage of a
lawsuit in return for obligations contained in a
negotiated decree, rely upon and have a right to
expect a fairly literal interpretation of the bargain
that was struck.” Brown v. Gillette Co., 723 F.2d
192, 192-93 (1st Cir. 1983) (citation and internal
quotation marks omitted).
Here, the “literal
interpretation” of the “bargain that was struck”
supports Petitioner.
Respondent’s suggestion that an implied
waiver can occur by operation of law also raises
serious questions under this Court’s precedent.
Waiver is “the ‘intentional relinquishment or
abandonment of a known right or privilege.’” Freytag
v. C.I.R., 501 U.S. 868, 894 n.2 (1991) (Scalia,
concurring) (quoting Johnson v. Zerbst, 304 U.S.
458, 464 (1938)). “Constructive consent is not a
doctrine commonly associated with the surrender of
constitutional rights, and we see no place for it
here.” Edelman v. Jordan, 415 U.S. 651, 673 (1974).
Finding an implied waiver here would stretch
the notion of a knowing and intentional choice
beyond the breaking point. Notably, Respondent
never denies the argument in the Petition (at 33-34)
10

that an MDL common-benefit process is the only
means for attorneys with cases consolidated into an
MDL – as well as (potentially thousands of)
additional state court cases as to which MDL firms
may have an interest, all of which are typically
assessed for the common benefit. No plaintiffs’
attorney or firm with a common benefit claim has
the meaningful choice of opting out of the MDL
common-benefit process.
In similar circumstances, this Court has
rejected “implied waiver” arguments. In Fuentes v.
Shevin, 407 U.S. 67, 94-96 (1972), this Court held
that a putative waiver of judicial process in a
consumer installment contract was unenforceable
where it was not express, specifically negotiated, or
knowingly agreed to, and the relinquishment of
rights was voluntary, knowing, and intelligently
made under the circumstances.
And in Stolt-Nielsen S.A. v. AnimalFeeds Int’l
Corp., 559 U.S. 662 (2010), this Court held that a

court may not compel arbitration on a classwide
basis when an agreement does not expressly
authorize such a procedure, because “[a]n implicit
agreement to authorize class-action arbitration” is
“not a term that the arbitrator may infer solely from
the fact of the parties’ agreement to arbitrate.” Id.
at 685.
Finally, references in the BIO to appellate
waiver provisions in other orders (BIO 13-14) is of no
moment. Those provisions were never enforced,
including when an appeal was filed by the lone
objector to the common-benefit order in the In re

Benicar (Olmesartan) Products Liability Litigation

MDL pending in New Jersey. Further, the district
court in In re Benicar required a fully transparent
11

process, for example providing all plaintiffs’ counsel
in the litigation with access to all submissions by all
common benefit firms. And there has never been
anything paid into a New Jersey pelvic mesh
common- benefit fund because of complete overlap
with the MDL to date.
CONCLUSION
The petition for writ of certiorari should be
granted.
Respectfully submitted,
ADAM M. SLATER
MAZIE SLATER KATZ
& FREEMAN, LLC
103 Eisenhower Pkwy.
Suite 207
Roseland, NJ 07068
Tel. (973) 228-9898
aslater@mazieslater.com

JONATHAN S. MASSEY

Counsel of Record

MASSEY & GAIL LLP
1000 Maine Ave. SW
Suite 450
Washington, D.C. 20024
Tel. (202) 652-4511
jmassey@masseygail.com

Counsel for Petitioner
March 20, 2020

12

